HHS/OIG-Audit--"Follow-Up on the Health Care Financing Administration's Successful Resolution of Patient Transfers, (A-06-97-00007)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-Up on the Health Care Financing Administration's Successful Resolution
of Patient Transfers," (A-06-97-00007)
February 18, 1998
Complete
Text of Report is available in PDF format (450 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
A prior project reported on improperly paid patient transfers under the Medicare
program and recommended that the Health Care Financing Administration (HCFA) take
action to resolve the improper payments. This follow-up review was made to access
the adequacy of HCFA's follow-up actions. This final report points out that of
the 13,771 unresolved transfers originally reported, HCFA has taken sufficient
actions to resolve 13,216. As a result more than $8.4 million has been recovered
for the Medicare Part A Trust Fund. As regards the remaining 555 transfers our
analysis indicates it would not be cost effective to continue to pursue these cases.
Therefore, we have recommended that HCFA consider its actions on the unresolved
transfers from our initial report as completed.